                                                      UNITED STATES DEPARTMENT OF COMMERCE
                                                      Office of Inspector General
                                                      Washington. D.C. 20230




March 19,2013

MEMORANDUM FOR:              Joseph Klimavicz
                             Chief Information Officer, NOAA


FROM:                         Allen Crawley      ~
~~~
                              Assistant Inspector General for Systems Acquisition
                               and IT Security


SUBJECT: 	                    Audit of NOAA's IT Security Program


As part of the fiscal year 20 13 Federal Information Security Management Act of 2002 review,
the Office of Inspector General is initiating an audit of NOAA's IT security program and
practices. Our audit objective is to assess the effectiveness of NOAA's information security
program by determining whether key security measures adequately protect NOAA's systems.

We plan to begin this work immediately. We will contact your audit liaison to establish an
entrance conference to discuss this audit. We will conduct our fieldwork at selected NOAA
and contractor sites. If you have any questions, please call me at (202) 482-1855 or Dr. Ping
Sun at (202) 482-6121.


cc: 	   Simon Szykman, Chief Information Officer
        Rod Turk, Director, Office of Cyber Security, and Chief Information Secur ity Officer
        Susan Schultz Searcy, Audit Liaison, Office of the Ch ief Information Officer
        Zachary Goldstein, Deputy Chief Information Officer, NOAA
        Lawrence Reed, Director, Cyber Security Division, NOAA
        Mack Cato, Audit Liaison, NOAA
